Washington, D.C. 20530

January 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Jonathan Wallace Gomez v. United States of America,
S.Ct. No. 20-6407
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 18, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on January 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6407
GOMEZ, JONATHAN WALLACE
USA

TAYLOR WILLS EDWARDS BROWN
ASSISTANT FEDERAL PUBLIC DEFENDER
P.O. BOX 17743
819 TAYLOR STREET
ROOM 9A10
FORT WORTH, TX 76102
817-978-2753
TAYLOR_W_BROWN@FD.ORG

